MERKLE & MAGRI, P.A.

5601 Mariner Street, Suite 400
Tampa, Florida 33609
(813) 281-9000
Clearwater (727) 441-2699
Fax (813) 281-2223

March 20, 2020

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: Devona Hollingsworth v. Department of Veterans Affairs,
S.Ct. No. 19-5 86

Dear Mr. Harris:

The governments response was filed on March 6, 2020 in the above-captioned case. The
first distribution date after the 14-day period under Supreme Court Rule 15.5 appears to be
Wednesday, March 25, 2020.

Pursuant to the Court’s March 19, 2020 Order addressing the extension of deadlines,
petitioner respectfully requests a delay in the distribution of the petition for writ of certiorari for
14-days or until the next currently scheduled distribution date of April 8, 2020. Petitioner requests
this delay due to absences and other difficulties that have been caused the COVID-19 outbreak.
These difficulties have created a need for additional time to file a reply.

The government does not oppose this request.

 
